<html>
<title> - TAIWAN POLICY ACT OF 2013; AND DEPARTMENT OF STATE OPERATIONS AND EMBASSY SECURITY AUTHORIZATION ACT, FISCAL YEAR 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  TAIWAN POLICY ACT OF 2013; AND 
                   DEPARTMENT OF STATE OPERATIONS AND 
                  EMBASSY SECURITY AUTHORIZATION ACT, 
                            FISCAL YEAR 2014 

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                         H.R. 419 and H.R. 2848

                               __________

                             AUGUST 1, 2013

                               __________

                           Serial No. 113-50

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                              ---------------                     
                       
                     U.S. GOVERNMENT PRINTING OFFICE
                     
     82-309PDF              WASHINGTON : 2013
  ----------------------------------------------------------------------------------------               
      For sale by the Superintendent of Documents, U.S. Government Printing Office,                 
      Internet: Bookstore.gpo.gov  Phone: toll free (866)512-1800; DC area (202)512-1800
          Fax: (202)512-2104  Mail Stop IDCC, Washington, DC 20402-0001
                       
                       
                       

                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 419, To strengthen and clarify the commercial, cultural, and 
  other relations between the people of the United States and the 
  people of Taiwan, as codified in the Taiwan Relations Act, and 
  for other purposes.............................................     2
  Amendment in the nature of a substitute to H.R. 419 offered by 
    the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida...........................    27
  Amendment to the amendment in the nature of a substitute to 
    H.R. 419 offered by the Honorable Alan Grayson, a 
    Representative in Congress from the State of Florida.........    49
H.R. 2848, Department of State Operations and Embassy Security 
  Authorization Act, Fiscal Year 2014............................    56
  En block amendments to H.R. 2848...............................    98

                                APPENDIX

Markup notice....................................................   130
Markup minutes...................................................   131
Markup summary...................................................   133


                   TAIWAN POLICY ACT OF 2013; AND



                   DEPARTMENT OF STATE OPERATIONS AND



                  EMBASSY SECURITY AUTHORIZATION ACT,



                            FISCAL YEAR 2014

                              ----------                              


                        THURSDAY, AUGUST 1, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:11 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order. Pursuant 
to notice we meet today to mark up two bipartisan measures, 
which we will take up according to the procedures sent around 
to all members' offices last night, and, without objection, all 
members may have 5 days to submit statements for the record on 
the bills and on any of the amendments.
    The Chair first calls up H.R. 419, the Taiwan Policy Act. 
And, without objection, the Ros-Lehtinen amendment in the 
nature of a substitute that was sent to your offices on Monday 
is made the pending business of the committee at this time. 
And, without objection, the brief Grayson amendment, 198, which 
is agreeable to Ms. Ros-Lehtinen and was provided to all 
members last night, is considered adopted, and the Ros-Lehtinen 
substitute, as amended by Grayson 198, will be considered base 
text for this markup today and is considered read and open for 
amendment at any time.
    [The information referred to follows:]<greek-l>H.R. 
419 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>ANS to H.R. 419 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              <greek-l>
Grayson amendment to ANS deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Royce. And after recognizing myself and the 
ranking member for brief remarks, I will be glad to recognize 
any other member seeking recognition to speak on this 
particular bill.
    As a strong supporter of U.S.-Taiwan relations and a 
cosponsor of this legislation, I would like to begin by 
expressing my appreciation to our chairman emeritus for 
authoring this good work. Taiwan, as you know, shares many 
common values with the United States, and earlier this year the 
ranking member and I traveled to Taiwan with a bipartisan 
delegation and discussed many of the issues that are addressed 
in this particular bill.
    Our relationship between this country and Taiwan is a 
cornerstone of U.S. foreign policy in the region, and this bill 
bolsters the U.S.-Taiwan diplomatic relationship and helps to 
ensure that Taiwan will be able to defend itself by authorizing 
the transfer of defensive military equipment.
    There is no better indicator of strong relations between 
countries than flourishing trade. The Taiwan Policy Act 
recognizes this by calling on the United States Trade 
Representative to quickly conclude the ongoing Trade and 
Investment Framework Agreement, the TIFA negotiations, with 
Taiwan and to begin negotiations on a bilateral free trade 
agreement with the country.
    Last month the President signed legislation passed by this 
committee to bolster Taiwan's participation in the 
International Civil Aviation Organization. This bill is another 
positive step in our relationship, and I urge my colleagues to 
support the Taiwan Policy Act.
    And I now recognize the ranking member for his opening 
remarks.
    Mr. Engel. Thank you very much, Mr. Chairman.
    As you mentioned, you and I both traveled to Taiwan earlier 
this year, and I have always been bullish on the U.S.-Taiwan 
relationship. I have always been amazed at what the people of 
Taiwan have been able to accomplish. Their economy is something 
like 18th in the world on a small, little island. And they have 
been good allies and friends of the United States, and I think 
that we should continue to do everything that we can do to 
strengthen them and make the relationship between the U.S. and 
Taiwan stronger than ever.
    This Taiwan Policy Act of 2013 is introduced by our 
colleague, Representative Ileana Ros-Lehtinen, and I support it 
wholeheartedly. It is intended to update and strengthen certain 
aspects of the U.S.-Taiwan relationship. It includes a 
provision that would allow senior leaders of Taiwan to visit 
the United States, and not just on so-called transit stops on 
the way to other countries. It is time that every Taiwanese 
official is accorded the respect that they deserve, and I feel 
very, very strongly about that.
    The legislation also maintains strong U.S. support for 
Taiwan's meaningful participation in international 
organizations like the World Health Organization and the 
International Civil Aviation Organization.
    And finally the bill authorizes the President to make 
available to Taiwan a wide range of defense items and services 
in accordance with the Taiwan Relations Act, which governs 
relations between the United States and Taiwan. By 
strengthening Taiwan's self-defense capability, the United 
States can help it to deter and defend against any possible 
attack.
    Make no mistake about it, everyone should know that the 
U.S.-Taiwan relationship is unbreakable, and this legislation 
helps to cement that. This bipartisan legislation reinforces 
America's strong support for Taiwan and the Taiwanese people, 
and I urge my colleagues to support it.
    I yield back.
    Chairman Royce. Thank you.
    I think our Congresswoman Ros-Lehtinen wanted to speak for 
a moment on this measure.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I would 
like to thank you and our esteemed ranking member for bringing 
up H.R. 419, the Taiwan Policy Act, to mark up this morning.
    I would also like to thank the cochairs of the 
Congressional Taiwan Caucus; our Foreign Affairs colleague, 
Albio Sires and, as well as, Gerry Connolly; and Mario Diaz-
Balart and John Carter for their full support and in joining me 
in introducing this bill.
    Taiwan is an important ally and friend of the United States 
and should be treated as such. Our relations with Taiwan are 
stronger than ever, yet Taiwan faces a precarious situation as 
North Korea remains unpredictable, and China continues to ramp 
up its military presence in the region and pursue antagonistic 
policies in the Taiwan Strait and South China Sea. This bill 
sends our Taiwanese allies an important message. It shows them 
that the United States Congress deeply values our friendship 
with them, and that we will stand by their side in the face of 
Chinese aggression.
    This bill would further strengthen our relations by finally 
permitting senior Taiwanese leaders to meet with U.S. officials 
in all executive branches. Imagine that. It will also authorize 
the sale of much-needed F-16C/D fighter aircraft to the Armed 
Forces of Taiwan. China has been increasing its military 
spending at an alarming rate. We must not allow Taiwan's 
defense capabilities to lag behind. So in an effort to not have 
that happen, this bill also authorizes the transfer of 
decommissioned class guided missile frigates to Taiwan.
    Mr. Chairman and Mr. Ranking Member, this bipartisan bill 
is not only good for our national interest, but it sends an 
important message to Taiwan that we value her friendship and 
will continue to stand by her side.
    I thank the gentleman for your consideration.
    Chairman Royce. Thank you.
    Do any other members wish to speak on this particular 
amendment?
    Mr. Chabot. Mr. Chairman.
    Chairman Royce. We will go to this side and Mr. 
Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, thank you, you and also our 
senior ranking member, for not only your support, but for your 
leadership and endorsement of this proposed legislation.
    I particularly want to thank also the chairman of our 
subcommittee. Chairman Chabot and I, we also recently had the 
privilege of visiting Taiwan and visiting and meeting with 
President Ma and some of the high officials there of their 
government, and wanted to reassure them of our absolute support 
and our bilateral relationship.
    I think we need to be reminded of the fact that Taiwan was 
the most critical issue which led to President Nixon's 
historical visit in 1972, changing liberty, the whole course of 
history in terms of our relationship then with the two powerful 
countries of the Soviet Union as well as China.
    I think it is important to note also that Congress passing 
the Taiwan Relations Act of 1979 was very, very critical. It is 
the chief cornerstone of our entire bilateral relationship with 
Taiwan, dealing both with economic as well as security issues.
    And I wanted just to note also that recently we had the--I 
had the privilege of introducing the South China Seas 
resolution and wanted to give notice to our friends of the 
People's Republic of China about our concerns in what is 
happening in that region. We all know the threats and the fact 
that some 1,600 ballistic missiles are pointed from China 
toward Taiwan, and in terms of our concerns in making sure that 
Taiwan is given whatever capabilities as far as military 
efforts to defend itself against enemies, that it is just as 
well also our responsibility.
    I think we need to be reminded that Taiwan is a beacon of 
democracy, a classic example where countries in this important 
region of the world need to look at the example that the people 
of Taiwan are able to live as a free people and in a way that 
their elections and everything are second to none in terms of 
the freedoms that they enjoy.
    And with that, Mr. Chairman, again, I want to really 
commend the gentlelady from Florida for her leadership, her 
initiative, and her passion in support of the people and the 
leaders of Taiwan, and I want to assure her of my absolute 
support of this proposed amendment in the form of a substitute, 
and I ask that our colleagues support this legislation, and I 
yield back.
    Chairman Royce. Thank you.
    I believe Mr. Chabot wanted to speak, chairman of the Asia 
Subcommittee, and I think he conducted the markup at 
subcommittee level on this legislation.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    I want to thank Mr. Faleomavaega. As he indicated, we 
traveled to Taiwan earlier this year and it was a very 
productive trip. We have had a tremendous working relationship, 
and I thank him for that. As he mentioned, we did have the 
opportunity to meet with President Ma. We also met with former 
President Chen and we certainly hope the issue is resolved 
sometime in the very near future.
    I strongly support the Taiwan Policy Act and I commend 
Chairman Ros-Lehtinen for her hard work on this issue. I am not 
going to repeat everything that I said during our Asia 
Subcommittee markup, but I do want to recognize the strong 
relationship, as has already been indicated here, between the 
United States and Taiwan. Taiwan is a democracy. It is a loyal 
friend and ally of the United States and it deserves to be 
treated as such by the United States Government.
    The legislation before us this morning addresses a number 
of important issues and in the interest of time, I will 
highlight just a couple. First, the Taiwan Policy Act would 
authorize an arms sale package that is long overdue, a package 
including, as Ms. Ros-Lehtinen indicated, the F-16C/D, which 
would provide a very important security blanket to Taiwan as it 
faces potential aggression from the PRC.
    The legislation also addresses an issue that I have been 
speaking out about for many years now--the issue of high-level 
visits by high-ranking Taiwanese officials. Our current policy 
is insulting to our Taiwanese friends and it sends the wrong 
message to all our allies. A change in U.S. policy is long 
overdue, and this legislation moves us toward that goal.
    Some years ago when President Chen visited the United 
States, about 25 Members of this body, after votes on a Monday 
evening, flew up to New York City to meet with the President 
because he couldn't come to Washington, DC. It makes absolutely 
no sense. On another occasion I visited with the Foreign 
Minister when he was a member of the Legislature here in 
Washington. He was appointed Foreign Minister about 3 weeks 
later and I had to go to Baltimore to visit with him because he 
could no longer come to Washington, DC, even though he had a 
home on the outskirts of Washington.
    It makes absolutely no sense, and it ought to be changed. 
It is long overdue and I appreciate Ms. Ros-Lehtinen addressing 
this in the legislation. I yield back the balance of my time.
    Chairman Royce. Mr. Ted Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    Thank you to Chairman Emeritus Ros-Lehtinen for this 
legislation that reaffirms the special relationship between the 
United States and Taiwan. Since Congress first passed the 
Taiwan Relations Act in 1979, there has been overwhelming 
support for the strategic and economic relationship between our 
two countries. Taiwan is the United States' eighth largest 
trading partner with trade totaling $60 billion annually.
    Taiwan has provided a reliable partner and ally for the 
United States in the Pacific, but as we confront various 
regional challenges and changing dynamics, this is a 
relationship that needs a long-term strategic vision. The 
United States will continue to support Taiwan's strategic 
needs, and I hope that in time we will see the delivery of the 
F-16C/Ds to Taiwan.
    There is no doubt this island nation plays a vital role in 
the world's economy and deserves a place in the international 
community. Taiwan's ability to participate in the international 
fora is consistently hindered, and the United States must 
continue to work to ensure that Taiwan receives observer status 
in various U.N. bodies like the International Aviation 
Organization and the World Health Organization.
    Perhaps most importantly, we will continue to support--we 
will continue to cement the strong and vibrant relationship 
between the American people and the people of Taiwan.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Royce. Mr. Matt Salmon of Arizona.
    Mr. Salmon. Thank you, Mr. Chairman.
    From 1977 to 1979, I was privileged to be a missionary for 
my church in Taiwan, and I lived in the southern part of the 
country. I learned the Chinese language, and I learned that the 
people of Taiwan are a freedom-loving people, hard-working 
people that feel very, very strongly about their relationship 
with the United States. In fact, many, many times they 
mentioned to me how welcome I was, being from Arizona, because 
Barry Goldwater, who was our Senator at the time, was referred 
to as ``Mr. Taiwan'' because of his immense support for Taiwan.
    I was also there in 1979, living there, when Jimmy Carter 
normalized relations with China and severed diplomatic ties 
with Taiwan, and I have got to tell you, a lot of those folks 
were very disspirited, and they felt like at that time maybe 
the United States was walking back from its friendship and its 
commitment to one of the strongest allies that we have had, 
probably next to Israel the strongest ally that the United 
States has had. And we shared with them that that doesn't do 
anything to diminish the strength and the commitment of the 
United States, and they were patient, they stayed with us.
    Then came the Taiwan Relations Act that very, very strongly 
said that we would stand by Taiwan, and if a crisis happened in 
that region of the world, that we would stand by them as strong 
allies, as we always have done.
    Fast forward a little bit, and I was privileged to be there 
at the swearing-in of Lee Teng-Hui. He was the first freely 
elected President from that region of the world in I don't know 
how many decades, but what a wonderful experience that was. And 
as I watched that budding democracy unfold in Taiwan, it 
couldn't help but bring tears to my eyes, but joy to my heart 
to see them, like we did over 200 years ago, try a new 
experiment, a new way of doing things.
    As I watch what is going on in Taiwan, and I see their 
continued love of freedom, and I watch as we on this panel 
express all the time that this relationship with Taiwan is one 
that will stand the test of time, it makes me feel really good.
    I think about the future of the eastern part of the 
Hemisphere, and I think that Taiwan is a wonderful example, I 
believe, for the rest of that region to follow. Ultimately, I 
believe in our lifetime, Mr. Chairman, they will lead the way 
to big, big reforms, I believe, on Mainland China. Mainland 
China has accepted economic freedom, but I think that, as we 
all realize, economic freedom just is the precursor to the 
other liberties and the freedoms we enjoy, and I believe that 
if we stand by Taiwan, and we keep them strong, ultimately it 
is going to not just be to the U.S.'s advantage, but to the 
entire world's advantage.
    And I want to let the entire world know, but especially 
Taiwan, I would like to be considered one of their best friends 
as you, Mr. Chairman, and Ileana Ros-Lehtinen, and Mr. 
Rohrabacher, and many on this panel. I want to express my 
undying support for that wonderful democracy, and I am proud to 
be a cosponsor of this legislation, and I enthusiastically 
support what we are doing today.
    And I yield back the balance of my time.
    Chairman Royce. Thank you, Mr. Salmon.
    We go to Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Chairman, I am also proud to cosponsor this 
legislation, and I thank you and the ranking member for 
bringing it up this morning. I am also proud to serve as the 
cochair of the Taiwan Caucus here in Congress. I have had the 
privilege--I didn't go there for my church, Mr. Salmon, but I 
have been to Taiwan 23 times. I started out originally as an 
Eisenhower fellow back in 1988 and have seen enormous progress 
in Taiwan, including democratization, inclusivity in terms of 
political participation, freedom of thought, freedom to 
organize and the like, and it is very heartening. And I hope it 
serves as a model for its big neighbor in the mainland.
    What is important, it seems to me, in this relationship is 
that the United States be clear and steadfast in the signals 
and actions it takes with respect to the defense of Taiwan and 
our commitment to the Taiwan Straits. Whatever happens in that 
part of the world must be done peacefully and consensually, and 
it will not be done by force, and the United States is prepared 
to keep that commitment pursuant to the Taiwan Relations Act 
and its long-standing commitment to the people of Taiwan. I 
think that is really a very important message, and I think that 
message is reaffirmed with the legislation we are adopting 
today.
    So, again, I thank you, and I yield back the balance of my 
time.
    Chairman Royce. Any other members seeking recognition?
    Well, hearing no further requests for recognition, are 
there any amendments to the base text?
    Hearing no further amendments, the question occurs on 
agreeing to the base text; namely, the Ros-Lehtinen amendment 
in the nature of a substitute, as amended.
    All those in favor, signify by saying aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, the base 
text is agreed to, and, without objection, the underlying bill, 
H.R. 419, as amended, is agreed to, is ordered favorably 
reported, and will be reported as a single amendment in the 
nature of a substitute. Also without objection, the staff is 
directed to make technical and conforming changes, and the 
Chairman is authorized to seek House consideration of this 
measure under suspension of the rules.
    Moving on, the Chair now calls up the bill H.R. 2848, the 
Department of State Operations and Embassy Security Act for 
Fiscal Year 2014. Without objection, the bill is considered 
read and open for amendment at any point.
    As all officers were previously notified, I will now call 
up the bipartisan manager's en bloc, and then we will recognize 
first myself and then the ranking member and any other members 
wishing to speak on the bill or to speak on the en bloc 
components of the measure.
    Without objection, the following amendments previously 
provided to all members and which you have in front of you will 
be considered en bloc: Keating amendment number 8, Cicilline 
amendment 23, McCaul amendment 30, Marino amendment 27, 
Stockman amendment 8, Smith amendment 33, the amendment to 
section 103 offered by Mr. Cicilline and Ms. Bass, amendment 18 
offered by Mr. Perry and Ms. Meng, the Grayson amendment 197, 
Duncan amendment 23, the Royce amendment 49.
    [The information referred to follows:]<greek-l>H.R. 
2848 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>En block amendments deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Royce. And I will now recognize myself to speak on 
the bill and the manager's en bloc.
    The Department of State Operations and Embassy Security 
Authorization Act provides our diplomats with the tools they 
need to do their job effectively and as safely as possible. 
Passing this authorization bill is a basic committee 
responsibility, and I very much appreciate the collaboration 
that I have had with Ranking Member Engel. This is a bipartisan 
bill, and together we have worked to incorporate the input of a 
large number of committee members. It is a bill we should be 
proud of, especially in this time of growing threats abroad, 
and I am very hopeful that we will be able to send it to the 
Senate and reach agreement to authorize State Department 
operations, as it should be.
    Now, here is the point, members: If signed into law, this 
would be the first such authorization bill in over a decade. 
That is why our cooperation on this measure is so important. 
From a committee standpoint, authorizing these programs will 
increase our oversight ability. It will improve committee 
members' ability to legislate new programs, saving money, and 
reforming old ones. And while this bill is fiscally 
responsible, representing a nearly 9 percent overall cut in 
spending from last year, it fully funds the administration's 
Embassy security request.
    It also contains important Embassy security reforms in 
response to the Benghazi attack. These include requiring that 
high-risk posts be designated, enhanced planning for rapid 
deployment of military resources in response to a crisis, and 
funding for more Marine guards at Embassy sites.
    Very important, the bill contains a provision championed by 
Mr. Radel and Ms. Frankel that will award local security guard 
contracts on the basis of best value rather than lowest cost. 
For our highest-threat posts, we need the highest-quality 
security personnel.
    In the fall we will turn to reforming the State 
Department's Accountability Review Board process, which looks 
at attacks on our diplomatic facilities, continuing the 
committee's focus on Embassy security.
    Specific savings in this legislation comes from ending 
outdated reporting requirements and limiting Foreign Service 
pay. This legislation also caps State Department appropriations 
levels. I think we can all agree that the Department must make 
better use of the resources it has.
    I appreciate the support of my colleagues on this critical 
piece of legislation and turn now to the ranking member for any 
remarks that Mr. Engel might have.
    Mr. Engel. Well, thank you, Mr. Chairman. Thank you for 
holding this markup on the State Department Operations and 
Embassy Security Authorization for Fiscal Year 2014. I believe, 
as you do, that passing this legislation is one of the most 
important responsibilities of our committee. You and I are both 
determined to make sure that this committee's jurisdiction is 
not trampled on, and this is one of the most important things 
that we as a committee can do. As you pointed out, it has been 
more than a decade since this committee has done this, and you 
and I are determined not to let that happen again or continue 
to happen. So I think this is a very, very important markup 
that we are having this morning.
    I am pleased that we were able to work out most of our 
differences and move forward with a bill that enjoys support 
from both sides of the aisle, strong support from both sides of 
the aisle, and I thank you for working things out with me and 
with the members on this side of the aisle with some of the 
concerns that came up. Thank you very much for your 
cooperation.
    This bill provides basic authority to the State Department 
to advance United States' interests around the world and 
authorizes the resources necessary to protect our brave and 
dedicated diplomats. The funds authorized in this bill support 
all of the State Department's operations around the world for 
less than 3 percent of the Defense Department's total budget. 
To me, that is a very wise investment in U.S. national 
security.
    In light of the dangers facing our diplomats in high-risk 
posts in the Middle East, North Africa, South Asia, and other 
volatile regions, the bill fully funds the President's request 
for diplomatic security. This will allow the Department to 
construct 6 new secure Embassies, support 151 new diplomatic 
security personnel, and build facilities for 26 additional 
Marine security guard detachments.
    The legislation also includes a number of other provisions 
to better protect our men and women serving abroad. This 
includes the text of a bipartisan bill introduced by 
Representatives Radel and Frankel. It gives the State 
Department flexibility to award local guard contracts at high-
threat posts on the basis of best value rather than on who had 
the lowest bid. In the past, having to accept the lowest bid 
sometimes resulted in poorly trained local security forces that 
endangered the safety of our diplomats and development experts.
    In the same spirit of bipartisanship, I would like to 
commend Representatives Perry and Meng for their hard work in 
drafting a provision, which has been included in the manager's 
amendment, that provides additional accountability for State 
Department officials when their job performance is 
unsatisfactory.
    In addition, I would like to thank Chairman Royce for 
including some elements of an Embassy security bill that I 
recently introduced. Among other things, these provisions would 
enhance the coordination between the State and Defense 
Departments in times of crisis, and require security and 
language training for State Department employees before they 
deploy to dangerous locations.
    I want to also thank the chairman for working out concerns 
that some of the members had with other issues, Mr. Cicilline 
and Mr. Keating, and I thank you very much for your cooperation 
on that as well.
    As you know, Mr. Chairman, it has been too long since the 
State Department authorization bill has been signed into law; 
as you mentioned, more than a decade. We need to resume the 
practice of passing our authorization bill on a regular basis, 
and encourage our Senate colleagues to do the same. When we 
fail to fulfill our legislative responsibility, the Foreign 
Affairs vacuum is filled by the Armed Services and 
Appropriations Committees, and once we lose our jurisdiction to 
others, it is hard to get it back. The bill before us today, 
while relatively modest in scope, is an important step in the 
right direction, and you and I are both determined to make sure 
that this committee has every bit of the jurisdiction to which 
it is entitled.
    I urge my colleagues to support this legislation, and I 
look forward to working with Chairman Royce to see that it 
eventually reaches the President's desk.
    And I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    Any other members wish to be identified, wish to speak?
    Chairwoman Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much.
    I would like to thank you, Mr. Chairman, and our ranking 
member, Mr. Engel, for this important bill. As has been pointed 
out, for 10 years now the Congress has failed to pass a State 
Department authorization bill, but it hasn't been for lack of 
effort on the House side. Last year my friend Congressman 
Howard Berman and I marked up, and our committee passed, and 
then the House passed a bipartisan, noncontroversial 
reauthorization bill in an effort to improve and strengthen our 
oversight responsibility over the Department of State, which is 
our primary agency of jurisdiction.
    On July 13, 2012, the House passed our State Department 
authorization bill overwhelmingly with a vote of 333 in favor 
and 61 against. However, it was unfortunate that the Senate did 
not make this authorization a priority, and failed to even 
bring up an authorization bill on the Senate floor. This year I 
am again hopeful that this committee will fulfill our 
obligation to the American public and adopt the State 
Department authorization bill.
    Since Congress has failed to authorize the Department of 
State for a decade now, it has weakened this committee's 
ability to effectively conduct our oversight of State. This 
bill is once again a bipartisan, fiscally responsible, and 
noncontroversial bill, just like last year, that focuses on 
funding and operational authorities, and, importantly, it 
provides essential authorities for improving Embassy security 
so that tragic terrorist attacks like the one in Benghazi may 
be prevented.
    I thank the chairman and the ranking member, and I commend 
their staffs for their hard work and effort on this bill. Thank 
you, Mr. Chairman.
    Chairman Royce. Thank you.
    Mr. Faleomavaega of American Samoa.
    Mr. Faleomavaega. Thank the chairman for yielding, and not 
wanting to be repetitious of what has already been said, but I 
do want to associate myself with the comments of both our 
chairman and ranking member.
    I have somewhat of an institutional memory in terms of what 
we have dealt with, the lack of passing an authorization bill 
dealing with State Department spending, and the problem here, 
because the other body has different rules, and this is making 
it almost impossible for us to make it in such a way that--the 
way that it should function, not for lack of trying. And I want 
to commend the gentlelady from Florida when she chaired this 
committee and our ranking member, Mr. Howard Berman, had good 
efforts, and despite all our good efforts in doing this, 
somehow we get stuck in the other body, again, as I said 
earlier, because of the differences of rules that they have and 
how they take control of legislation. This has caused a lot of 
complication in our work here.
    But, again, I do want to thank both our chairman and 
ranking member for their leadership, and I sincerely hope that 
we are going to put more teeth in this whole issue of having 
proper jurisdiction and the authorization to do what we should 
do as far as providing for the necessary legislation to making 
sure that the operations of our State Department will be taken 
well.
    And with that, Mr. Chairman, I thank you.
    Mr. Rohrabacher. Would the gentleman yield for a question?
    Mr. Faleomavaega. I gladly yield to the gentleman.
    Mr. Rohrabacher. Did the experience that you had in 
Peshawar, at the consulate in Peshawar, dealing with the 
security that you faced there, which I happen to remember 
because I was the other--I was with you at that time, did the 
fact that they offered you a .45-caliber pistol to keep 
underneath your pillow make you any more conscious of security 
needs at American diplomatic facilities?
    Mr. Faleomavaega. Reclaiming my time, I want to say to my 
colleague and good friend from California, that was quite an 
experience. I think I was the one that had the shotgun, and you 
had the .45----
    Mr. Rohrabacher. I kind of think that is what it was.
    Mr. Faleomavaega [continuing]. Under your pillow in terms 
of the safety precautions at our consulate office there in 
Peshawar. And I look forward to the next trip with you, the 
next time we might visit some friendlier countries, so we may 
not have to do this. But I think the gentleman's comment is 
well taken in terms of making sure that the security of our 
Embassies and consulates are taken in a lot more serious 
fashion perhaps than what we have now.
    I am not here to point fingers who was at fault, and lack 
of funding, or lack of management, or whatever it may be, but I 
do want to thank the gentleman that there is absolutely no 
question in making sure that we in the Congress do our part, 
our part in giving the necessary resources for our friends at 
the State Department to do their part and to make sure that our 
foreign policies and issues that are important to our national 
security and economic interests in those countries of the world 
are taken seriously and in a way that it has the support, 
especially of this committee as the authorizing committee. And 
the gentleman I want to thank.
    Chairman Royce. Thank you, Mr. Faleomavaega, and I will 
assure you that we have a more promising outlook in the Senate 
this year for passage, and that is why I appreciate our quick 
action in getting this over to the Senate.
    Mr. Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. First of all, 
let me thank you for bringing an important piece of legislation 
before the committee, you and Eliot Engel. Contained within 
this bill there are a number of important provisions, but very 
serious and necessary security upgrades for our Embassies and 
consulates abroad.
    I was the author of the Admiral James W. Nance and Meg 
Donovan Foreign Relations Authorization Act of Fiscal Years 
2000 and 2001, which was one of those last State Department 
bills that we got passed, and that had serious upgrades, but we 
need to, as you are doing, revisit the gaps that do exist, and 
upgrade many, and put more people on the ground, more boots on 
the ground, so to speak, diplomatic security people and the 
like, as well as Marines.
    So, again, thank you so much, especially in this post-
Benghazi era where multiple errors in judgment certainly led to 
lethal consequences, but we also know that we need to look at 
the other side of it, and that is the physical infrastructure. 
This bill does that.
    Also included is peacekeeping, which is so important, and I 
am so glad that you have included the $300 million for the Mali 
peacekeeping in Africa, which, again, is our part of trying to 
ensure that the people who have suffered so much in Mali don't 
continue to suffer, and peacekeeping deployments there will 
make a difference.
    Let me also thank you for including in the en bloc the 
amendment that I offered, which, frankly, is a section that I 
had offered in two bills previously that did not get enacted 
into law. One of them was the reauthorization of the 
Trafficking Victims Protection Act, and the other was the 
International Megan's Law, which was approved by the full House 
back in 2009, but in the Senate, like so many other bills we 
send them, it was never taken up. And that is a very important 
provision that will limit to 1 year, or such time as the 
Secretary of State shall determine appropriate, the period of 
validity of a passport issued to a sex offender. In other 
words, the big national Megan's Law database will now allow--
rather than 10 years, which is a huge amount of time for these 
sex offenders to get on a plane and travel, the Secretary will 
have the capability to reduce to a year, how long that passport 
is valid.
    The General Accountability Office back a couple of years 
ago issued a report called, ``The Current Situation Results in 
Thousands of Passports Issued to Registered Sex Offenders,'' 
and they found that some 4,500 U.S. passports were issued to 
known registered sex offenders in Fiscal Year 2008 alone. The 
GAO emphasized in their report that this number is probably 
understated due to the limitations of the data that was 
available to analyze and to access. And again, let me remind 
members, once you get a passport, it is good for 10 years, and 
these people travel. Not all of them, but many of them, we know 
that these 4,500 per year are getting. And that calculates, you 
know, to about 50,000 Megan's Law registered sex offenders, 
these are convicted pedophiles. They can hop on a plane and go 
to Cambodia, go to Bangkok, and go to other places to abuse 
little children.
    Megan Kanka, the little girl from whom Megan's Law derives 
its name, lived in my hometown. In 1994, members will recall, 
Megan was brutally killed and exploited and raped by a 
convicted pedophile, who lived across the street from her 
house. I know the parents very well, I know the family very 
well, and that began the push in every State of the Union of 
what we call Megan's Law. And now we have a national database 
that takes all of those names and keeps an ongoing listing of 
them, and there are obviously things they have to do.
    But, again, they travel. This gives the Secretary of State 
some additional authorities to make sure that he or she can 
limit to a year how long that passport is good for.
    And I would remind members finally, as my time comes to an 
end, that I will be reintroducing International Megan's Law. It 
did pass when Howard Berman was chairman. We worked in a very 
bipartisan way. There was push-back from the Justice Department 
and others, which I find to this day absolutely appalling. ICE 
has done a wonderful job on a sporadic basis. When they know 
that someone is getting on a plane to travel to exploit 
children--and sex tourism is in ascendancy, not descendancy--
they have advised countries of destination. In one case in 
California, it was known that a number of pedophiles were 
getting on a plane to go to Korea. Very fine officers in ICE 
notified Korea, and they said, no way, no way they are coming 
into Korea to exploit our children.
    So knowledge is power. The International Megan's Law is a 
means of comprehensively doing this. This disparate provision 
of that, which Chairman Royce has kindly included as an--en 
bloc as part of an amendment, will at least give one tool to 
the Secretary of State to mitigate the damage done by these 
traveling pedophiles.
    Chairman Royce. Thank you.
    We go to Mr. Gregory Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    I want to voice my support for H.R. 2848, Department of 
State and Embassy Security Authorization Act. I also want to 
first make sure that I affiliate myself with the remarks of Mr. 
Smith, who I entirely agree with in regards to stripping this 
so that we are not exporting pedophiles and we are protecting 
our young people. I want to make sure that I let you know I 
agree with you very much there.
    This bill provides critical support for U.S. diplomatic 
efforts around the world and critical programs that ensure our 
Nation remains strong internationally. What we spend on these 
efforts is a tiny percentage of our national spending, but yet 
it yields mightily in mighty, mighty results.
    Our Nation is stronger because of the efforts that are 
funded in this bill. We know all too well these days that our 
Nation's diplomats are as much in harm's way as many of our 
military personnel, and I want to thank the chairman and the 
ranking member for moving forward measures in this bill to 
secure our diplomats in a bipartisan manner.
    And I want to thank them also for advocating and keeping 
the committee's jurisdiction over this bill. No one knows the 
importance and the functions of the State Department and our 
Embassies and our democratic programs than the members on this 
committee. This committee hears it, this committee understands 
it, and so, therefore, it is right that this committee has 
jurisdiction over it.
    In addition to security-related matters, I want to point 
out a couple of programs that I believe don't get enough 
recognition, but are important to our Nation's relationship 
building and democracy worldwide. This bill authorizes 
educational and cultural exchange programs, which do an 
excellent job of promoting U.S. interests abroad in a way that 
increases the understanding of America and our values. I have 
hosted many delegations of officials, civil society, civil 
servants, students, and many other groups from around the world 
under the auspices of these programs. Just last week I had the 
pleasure of being shadowed by Lloyd Hussein of the United 
Kingdom through a State Department exchange program. I can't 
say enough about what this kind of interaction does to build 
understanding, partnership, and having us working together.
    Let me also mention that the National Endowment for 
Democracy, of which I used to sit as a board member, is 
authorized in this bill. It is also a program I cannot say 
enough about. Just about anywhere globally that people aspire 
to democratic governance, NED is there to provide technical 
assistance and support.
    Mr. Chairman, Mr. Ranking Member, I thank you for your 
efforts on these and many other measures in this bill, and I 
yield back the balance of my time.
    Chairman Royce. Thank you.
    We now go to Mr. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. I will be very brief.
    Those of us who have served on this committee for a number 
of years, I think, know that for a long time we struggled on 
this side of the aisle and that side of the aisle to get our 
act together. We have done that now. We passed one in the last 
Congress. Unfortunately, the Senate and this House couldn't get 
the two bodies together to actually pass something.
    The Foreign Affairs Committee both over here and over there 
would be much more relevant, much more significant, much more 
important if we could do that now, the two bodies together, 
just as this committee has now done in a bipartisan manner. So 
I would strongly urge members, if they have connections, 
colleagues over in the other body, we ought to be talking to 
them, too, because I think it would be very important to our 
country if you could have the two bodies get together.
    This is a well-crafted bill, it is a fiscally responsible 
bill, and I urge my colleagues to support it.
    I yield back.
    Chairman Royce. Your point is well taken, Mr. Chabot. Mr. 
Engel and myself are engaged, and I again stress that I think 
we have got a much more promising outlook in the Senate this 
year for passage and conference with this legislation.
    We will now go to Gerry Connolly of Virginia.
    Mr. Connolly. Mr. Chairman, thank you, and, you know, as 
somebody who used to write bills like this, and having helped 
write the last foreign aid authorization bill to become law, 
which was in 1986, I know how hard this can be. And I commend 
you and the ranking member, Mr. Engel, for your leadership and 
our staff, our collective staffs, for being able to pull us 
together.
    A couple years ago we had 2 very hot summer days and well 
into 2 summer nights marking up the State Department bill, and 
it was an exercise that maybe made us feel good, but it was 
doomed to failure and died of its own weight. This is a good 
example of coming together and legislating, and legislating to 
create some common good.
    I particularly want to commend my colleagues and the 
leadership for how we are dealing with Embassy security. 
Instead of pontificating, instead of making political points, 
we are trying to legislate, we are trying to make our Embassies 
more secure, and we are trying to create a process for doing 
that, and I think that is a real contribution to the subject.
    So thank you, Mr. Chairman and Mr. Engel, for your 
leadership, and I look forward to supporting the legislation.
    I yield back.
    Chairman Royce. We go to Judge Ted Poe of Texas.
    Mr. Poe. Thank the chairman, especially for putting this 
bill together so that Congress can do its part when it comes to 
oversight and authorization. The bill shows the seriousness of 
the committee.
    I would also like to thank the chairman for his support for 
adding stronger language about making sure that we are getting 
results from our programs.
    The bill provides congressional authorization for the 
Center for Strategic Counterterrorism Communications. The 
Center's job is to coordinate our Government's messaging 
against terrorists throughout the world. For Congress, 
authorizing the creation of a new organization doesn't end with 
a vote. Our new language requires the State Department to 
establish measurable goals, performance metrics, and strict 
monitoring and evaluation. This will help the Center and 
Congress evaluate and learn what has taken place. We need to 
support the programs that are bringing results and get rid of 
the ones that aren't. I hope we can do this across the board 
with foreign aid.
    H.R. 2638, the Foreign Aid Transparency and Accountability 
Act, the lead sponsor is my, as I affectionately say, greatest 
irritant, Mr. Connolly from Virginia----
    Mr. Connolly. You don't mean that.
    Mr. Poe [continuing]. This bill requires monitoring, 
evaluation, and transparency of all our foreign aid programs, 
and I thank him for the work on this. Last year's version 
passed the House unanimously, and I hope we can do the same 
this year with the committee and the chairman's support. I 
thank the chairman for including the language, and I am pleased 
for his support.
    I yield back.
    Chairman Royce. Thank you.
    We go now to Congressman Bill Keating of Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. First of all, I would 
like to thank the chair and the ranking member for including in 
the en bloc package my amendment dealing with educational 
cultural exchange. As we are seeing, conflict and civil strife 
are not restricted to countries in transition or emerging 
governances.
    My amendment would ensure the State resources are 
adequately expended to programs that serve areas of continued 
unrest. It is in these sometimes volatile regions that 
educational cultural exchanges are the most critical in 
promoting democracy building and stability. So I would like to 
thank the chair and ranking member for that.
    Secondly, I intended to offer an amendment to deal with the 
impact of extremism on women in high-risk countries. This would 
help ensure that the State Department works to counter 
extremist rhetoric and behaviors, and as they do this, they 
will also work to promote women's education and positions in 
society as a tool to counter extremism.
    Women are uniquely positioned to counter radicalization 
both at home and in their communities, and are a vital 
component of counterterrorism efforts. Further, the treatment 
of women in countries experiencing a political transition can 
serve as a bellwether for extremist policies to come. In some 
ways this can even be more telling than what the actual leaders 
of countries may be saying to U.S. officials.
    The promotion of women's education and civic engagement 
should be at the forefront of much of what we have to do in 
fragile and transitioning states. Social and legal institutions 
still do not guarantee women equality and basic legal or human 
rights. Furthermore, laws against domestic violence are often 
not enforced on behalf of women.
    More women than men live in poverty, and approximately two-
thirds of the illiterate adults in the world are female. Social 
and legal institutions still do not guarantee women equality in 
basic legal and human rights; access to or control of other 
resources in employment, earnings, and social and political 
participation. Furthermore, laws against domestic violence are 
often simply not enforced.
    Women are subject to different forms of violence globally, 
physical, sexual, psychological, and economic, both within and 
outside their homes. Rates of women experiencing physical 
violence at least once in their life can vary from several 
percent to over 60 percent depending on the region in which 
they live.
    Flowing from this discussion of the amendment, it is now my 
understanding that the committee is willing to instead hold a 
first-of-its-kind hearing on this subject in the near future. 
As such, I withdraw my amendment today, and I look forward to 
working with the chairman--thank the chairman and the ranking 
member and their staffs--and other members of the committee to 
further promote by holding an entire hearing on strengthening 
the role of women in an effort to counter the effects of 
violent extremism. So I withdraw my amendment and thank the 
chairman and his staff, the ranking member and their staff, for 
holding a first-of-its-kind type of hearing in the near future.
    Thank you, Mr. Chairman.
    Chairman Royce. Well, I appreciate the gentleman's 
cooperation and support for the underlying bill. And Mr. 
Keating raises a very important issue. Women all over the world 
face incredible oppression, and this is an issue that Mr. 
Keating and I have talked about, what we see today or have seen 
in Mali, for example, what we have seen in the Middle East, 
parts of Asia, and I look forward to continuing to highlight 
this with a forum to do so, because you are absolutely right, 
as we have discussed. And I appreciate one more time the 
gentleman from Massachusetts' support for the underlying 
legislation.
    We will go down to Mr. Duncan of South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. I want to just 
reiterate my thanks to you and the ranking member for your work 
on H.R. 2848.
    I want to specifically talk about an amendment in the en 
bloc, number 23. In February, the State Department requested 
$900 million for a brand new Foreign Affairs Security Training 
Center, and the State Department has indicated that it will 
work with the Department of Homeland Security to evaluate 
whether any training capacity for State Department personnel is 
available at the Federal Law Enforcement Training Center, or 
FLETC, which is one of several FLETC facilities nationwide.
    I act as chairman of the Oversight Subcommittee of the 
Homeland Security Committee, and I have worked closely to 
consider the capabilities of FLETC, and in May I led a 
subcommittee site visit to the FLETC facility out in Maryland. 
As a component of DHS, FLETC serves as an interagency law 
enforcement training organization for all Federal departments; 
three branches of the government; State, local, rural, tribal, 
territorial and international law enforcement agencies.
    This training ranges from basic programs like the criminal 
investigator training program to advanced training programs 
such as cyberterrorism, financial forensics, and money 
laundering training. FLETC has the current capacity and 
capability to train and take on training of State Department 
personnel without State Department building a brand new, 
expensive facility.
    So I want to urge my colleagues to support the swift 
passage of H.R. 2848, and with that I will yield back.
    Chairman Royce. Thank the gentleman.
    We go now to David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I want to begin by echoing the remarks of my colleagues and 
recognizing the strong bipartisan manner in which we are 
marking up this State Department authorization legislation, and 
note my appreciation for the inclusion of some of my proposals 
among the bipartisan amendments accepted in the manager's 
package. I thank Chairman Royce and Ranking Member Engel for 
their leadership.
    United Nations peacekeeping troops support the U.S. 
principles of peace and democracy around the world; however, in 
the current fiscal climate, our peacekeeping budgets often fall 
short of the needs on the ground. This problem is exacerbated 
by the fact that our fiscal calendar and that of the United 
Nations are not synchronized. As a result, we are forced to 
engage in complicated accounting transactions to pay our 
peacekeeping bills on time, even when the Congress has 
appropriated enough money to pay those bills.
    That is why I, along with Ranking Member Karen Bass, 
proposed an amendment to provide the State Department 
additional flexibility to pay its bills to the United Nations 
from appropriated funds. The amendment is budget neutral and 
focuses on addressing only the issue of flexibility. It is not 
providing additional funds to the U.N.
    We can and often do disagree about appropriate funding 
levels, but we should all agree that if we appropriate money 
for peacekeeping, we ought to make sure it gets to where it 
needs to go, and that it gets there on time. And both 
Congresswoman Bass and I both appreciate the inclusion of this 
proposal in the manager's amendment.
    I also appreciate the inclusion of a technical change to 
protect the integrity of our Foreign Service by clarifying a 
provision in the bill that would allow open positions to be 
filled by non-Foreign Service officers in time of need. I 
support the provision in the bill, and my amendment will make 
it clear that this allowance is merely temporary.
    The men and women of the Foreign Service, like their 
brothers and sisters in the military, serve overseas in war 
zones and dangerous places and sometimes even make the ultimate 
sacrifice. Foreign Service officers and their families suffer 
from exposure to tropical diseases, and the assignment to 
countries with inadequate healthcare systems and potential 
exposure to crime, violence, civil unrest, and warfare. 
Throughout their careers serving our country, they amass a 
great deal of experience, and it is in our best interests to 
continue to leverage their expertise when possible.
    Finally, as we discuss the operation of our State 
Department for next year, I would like to specifically note the 
work that the U.S. Department of State and our Foreign Service 
officers around the world are doing to protect and promote the 
human rights for individuals globally, including lesbian, gay, 
bisexual, and transgender persons. I recognize their good work 
and encourage them to build upon it today, because there is a 
severe cause for concern. Just in the past month LGBT 
individuals have been brutally tortured and killed in Cameroon, 
attacked and arrested in Russia, and harassed and abused in 
Jamaica. And I am sorry to say that the list goes on and on.
    Yet despite these challenges, remarkable progress is being 
made to ensure that, as the Universal Declaration of Human 
Rights states, all men are born free and equal in dignity and 
rights, regardless of where they born or where they live. The 
United States has long stood as a beacon of freedom for all, 
and we have defended those freedoms here at home and, 
importantly, around the world; freedom and equality for women, 
for children, for religious, racial, and ethnic minorities, and 
for LGBT individuals.
    There is much more we can do, and I encourage the 
dedication of additional resources and support to protect these 
basic human rights, for regardless of one's personal views, we 
can all agree that no one should be targeted or attacked or 
killed on the basis of sexual orientation or gender identity. I 
am proud the State Department under Secretary Kerry is 
continuing to expand and develop its work in this important 
area, and I look forward to working with this committee moving 
forward to ensure we are providing the necessary support, 
guidance, and pressure on human rights issues.
    I am very pleased by how much we have accomplished over the 
last few years, and I want to thank our chairman emeritus, 
Ileana Ros-Lehtinen, for endless support of the LGBT community 
and her willingness to work across the aisle. Her commitment 
and leadership has helped grow bipartisan support for these 
issues.
    I look forward to working with Chairman Royce, and Ranking 
Member Engel and members of this committee to elevate the 
importance of human rights of LGBT individuals internationally, 
and for continuing a formal dialogue with the State Department 
in a bipartisan manner to protect human rights for all.
    And I thank you, Mr. Chairman, and yield back.
    Chairman Royce. Thank you.
    We go to Scott Perry of Pennsylvania.
    Mr. Perry. I thank you, Chairman Royce and Ranking Member 
Engel. We appreciate this, and I appreciate this opportunity 
and your diligence in bringing this to the floor.
    In the wake of the security incident at the State 
Department facility in Libya last year, it was brought to this 
committee's attention that future Accountability Review Boards 
should have more flexibility and clear guidance to make 
disciplinary recommendation, but these fixes would require 
change to the ARB's authorizing statute. So I, with the capable 
help of the gentlelady from New York, Ms. Meng, have drafted an 
amendment that does just that. And with this bipartisan 
legislation, if an ARB finds that a State Department employee's 
unsatisfactory performance or misconduct has significantly 
contributed to a security incident, the ARB can recommend that 
the employee be disciplined appropriately.
    While we certainly understand the vast majority, the vast 
majority, of State Department employees are capable and 
dedicated public servants, the ARB should be given more leeway 
to recommend disciplinary actions and clear guidance for doing 
so.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Royce. We go now to Mr. Juan Vargas of California, 
or was Mr. Ted Deutch seeking recognition first? Mr. Ted Deutch 
of Florida.
    Mr. Deutch. Thank you. Thank you, Chairman Royce, and I 
want to thank you and Ranking Member Engel for working together 
to put forth a bipartisan State authorization bill that keeps 
intact the ability for the United States to continue to engage 
around the world, while preserving our national security 
interests and protecting the brave men and women of the Foreign 
Service. They are the ones who walk the streets in cities 
around the world, often in volatile and hostile places, day 
after day, talking face to face with people, sharing American 
values and American ideals.
    I am pleased to see that that bill includes much of the 
ranking member's Embassy Security Act that will help ensure 
that our diplomatic facilities and our diplomats are protected.
    The devastating cuts put forth in this year's State foreign 
ops appropriations bill would greatly hinder the State 
Department's ability to engage both bilaterally and 
multilaterally. This bill ensures that the United States can 
continue to keep our commitments to international peacekeeping 
and international organizations.
    We must promote American engagement. As ranking member of 
the Middle East Subcommittee, I would urge my colleagues to 
support the strong role that the United States must play 
throughout the world and promoting American ideals. We have to 
continue to actively promote our priorities of human rights, of 
democracy, and of equality.
    I know, we all know, that we have to make difficult choices 
during these tough budget times, but reducing America's role in 
the world, particularly when the International Affairs budget 
only makes up less than 1 percent of the Federal budget, is not 
only devastating to our allies, but, most importantly, it is 
devastating to our security interests and our security 
interests around the world.
    So, again, I want to thank Chairman Royce and Ranking 
Member Engel for working to preserve those efforts. I 
appreciate the time, and I yield back.
    Chairman Royce. Thank you, Mr. Deutch.
    Mr. Juan Vargas of California.
    Mr. Vargas. Thank you very much, Mr. Chairman. I, too, want 
to thank you and the ranking member for all of the hard work 
that you have put into this bill, especially for the security 
of our Embassies. So I won't go and repeat everything that has 
been said, but I do want to thank you very much.
    I do want to ask a question, however, that came up since we 
have been here, and this is under Title II, subtitle B, section 
212, Border Crossing Fee for Minors. I am not sure who would be 
the appropriate person to ask this question.
    Chairman Royce. I would probably be the appropriate person 
at this time, Mr. Vargas. Go ahead.
    Mr. Vargas. Thank you, Mr. Chairman.
    I would ask, then, the border crossing fee for minors, does 
it apply to both borders equally, the northern border and the 
southern border? I represent California, the southern border, 
as you know, and would like to know if this fee is a fee that 
is collected at both borders, and if not, why not?
    Chairman Royce. I am going to say that as I reference that, 
what we have included in the measure is the request from the 
administration, and, of course, the issue goes to the machine-
readable U.S. border-crossing ID card. And just as in previous 
years, the State Department requests the change, in this 
particular case we are acting at their request, because the 
cards now include more premium features, and this change simply 
allows them to recoup the costs. Or they don't recoup the 
costs, but they would recoup a larger percentage, as I recall, 
of the cost, a greater proportion, for providing the service.
    So I think the question would go to if this is a service 
provided uniquely to the southern border, then that is why the 
language might only--as you have pointed out, might only 
reference the southern border. We are in the process right now 
of checking to see if that feature is also used on the border, 
northern border, and if so, then we would concur with you, I 
think, that we would want to make an identical change to the 
northern border.
    If you will give me a few more minutes, I think we will 
have the opportunity to review the issue with State and whether 
it is equitably done. I will assure you this: We will work with 
you to get that equitable resolution to the problem before this 
goes to the floor, if that is--if that meets with your accord.
    Mr. Vargas. Absolutely. And again, I thank you very much 
for looking at that issue, and again, I thank you so much for 
your hard work on this bill.
    Chairman Royce. Thank you, Mr. Vargas.
    Mr. Vargas. Thank you, sir.
    Chairman Royce. And I believe Mr. Brad Schneider was 
seeking recognition next.
    Mr. Schneider. Thank you, Chairman, and I will be brief as 
well.
    I want to thank the chair and ranking member for bringing 
this important piece of legislation to the committee for 
consideration. I will repeat what has already been said, that 
this is a good bill. The legislation not only authorizes funds 
for the Department of State, but also addresses many of the 
pressing needs our Embassies and consulates around the world 
have, particularly updating, upgrading necessary security.
    The important provisions in this bill will provide funding 
for the essential work that is performed by our Foreign Service 
officers and diplomats, and also create a reinforcing system of 
security to ensure their continued safety.
    We cannot, in fact we must not, sacrifice our engagement in 
the world under the guise of fiscal prudence. This bill strikes 
a responsible balance between physical security needs of our 
diplomatic facilities around the world without overly burdening 
our extremely talented Foreign Service corps with rules and 
regulations that would otherwise restrict their ability to 
perform their important work.
    I did want to thank the committee for addressing these 
critical needs, and I yield back the balance of my time.
    Chairman Royce. I thank the gentleman.
    Any other members seeking recognition at this time?
    Yes. Grace Meng of New York.
    Ms. Meng. I would like to thank Chairman Royce, Ranking 
Member Engel, and their staffs for all your hard work on 
today's important legislation. I specifically wanted to thank 
you for agreeing and working to incorporate the Perry-Meng 
amendment into this year's State Department authorization bill.
    This past December an Accountability Review Board, or ARB, 
was convened to assess the State Department's policies and 
response to the attack in Benghazi. However, under the current 
authorizing statute, an ARB can only recommend disciplinary 
action against the State Department employee, where there has 
been a ``breach of duty,'' a standard which is held very high 
and very hard to understand. As a result, the Benghazi ARB was 
unable to recommend disciplinary action against even a single 
State Department employee.
    The Perry-Meng amendment changes that. By lowering and 
clarifying the standard by which future ARBs can recommend 
disciplinary actions, our amendment will ensure greater 
accountability and responsibility at the State Department in 
the years to come and prevent future Benghazis.
    I thank the committee for its consideration, and I hope we 
can continue to move forward in a productive, bipartisan 
fashion on this and other issues.
    And I yield back my time.
    Chairman Royce. Thank you very much, Congresswoman.
    We will now go to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair, and----
    Chairman Royce. And then--okay, very good.
    Ms. Frankel.
    Ms. Frankel. Thank you, Mr. Chairman. Thank you also to the 
ranking member and yourself for this bipartisan effort. And I 
want to thank Mr. Waddell for working on a provision that you 
have included in this bill.
    One of the privileges of being on this committee has been 
the opportunity to meet many of our Ambassadors, our own 
Ambassadors and Ambassadors from other countries. And I think 
many people don't realize how professional and competent and 
dedicated these folks are.
    When we had the hearings on Benghazi, one of the 
recommendations of Secretary Clinton, once we asked, you know, 
what she would recommend to make the security better for our 
diplomats, is she asked for more flexibility in terms of best-
value contracting. And that is provided for in this main bill, 
and I want to again thank Mr. Royce and Mr. Engel for including 
that.
    And I yield back.
    Chairman Royce. Thank you.
    Are there any other members seeking recognition?
    I think we have Alan Lowenthal of California.
    Mr. Lowenthal. I just want to concur with what everyone 
else has said. You know, as a new Member to the Congress, it is 
in an environment that has been, I think, aptly described as 
highly partisan. This committee is not that way. This committee 
is bipartisan, works well together. The Security Authorization 
Act reflects that. And I want to really thank the chair for his 
leadership on Vietnamese human rights actions. It has been 
wonderful working with the chair, and I just really wish to 
thank him and Mr. Smith also. Thank you so much.
    Chairman Royce. Thank you, Mr. Lowenthal.
    Any other members seeking recognition?
    Mr. Joaquin Castro from Texas.
    Mr. Castro. Thank you, Chair, and again, let me say thank 
you to the chairman and the ranking member for your leadership 
on this bill and for doing everything that we can to make sure 
the State Department has the resources it needs to effectively 
do diplomacy around the world.
    I would just echo also Congressman Vargas' concern on 
section 212 on the border-crossing fee for minors and note that 
it is a jump of about 500 percent on that card. I hope that, as 
you mentioned, Chair, that we can work together to make sure 
that that cost is spread evenly, if there is a card that is 
issued on the northern border or a card that is issued to folks 
of other countries as well.
    Chairman Royce. I concur, Mr. Castro, absolutely, with your 
point. We will get together.
    Mr. Castro. That is an important thing, particularly for 
folks in border communities where you have literally millions 
of people crossing back and forth every year, mostly for the 
purposes of commerce, and essentially helping to support the 
many American businesses along the U.S.-Mexico border. So thank 
you very much.
    Chairman Royce. Thank you.
    Any other members seeking recognition?
    If not, the question occurs on agreeing to the amendments 
being considered en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
amendments considered en bloc are agreed to.
    Are there any further amendments?
    Hearing no further amendments to this measure, the question 
occurs on agreeing to H.R. 2848, as amended.
    All those in favor, say aye.
    All those opposed?
    In the opinion of the Chair, the ayes have it, and the bill 
is amended as agreed to, and without objection, H.R. 2848, as 
amended, is ordered favorably reported and will be reported as 
a single amendment in the nature of a substitute.
    Also, without objection, staff is directed to make 
technical and conforming changes, and the Chairman is 
authorized to seek House consideration of this legislation 
under suspension of the rules.
    And I want to again thank Ranking Member Engel and all of 
our committee members for their contribution to this important 
legislation, and their assistance in today's markup.
    So the committee at this time stands adjourned.
    [Whereupon, at 11:20 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <F-dash>\<Hoarfrost><brit-pound><acctof><acctof>a<natural><variable>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
